APPENDICES

APPENDIX A

Opinions of the United States Court of Appeals, 5th Circuit

Urntein States Court o! Appeals
tor ttje Jftftf) Circuit
United States Court of Appeals
Fifth Circuit

No. 20-40045
Summary Calendar

FILED
November 6, 2020
Lyle W. Cayce
Clerk

Imeh U. Affiah,

f

Plaintiff—Appellant

>

versus
Texas Southmost College; Lissa Frausto; Mike
Shannon,
Defendants—Appellees.

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 1:18-CV-196

Before Clement, Higginson, and Engelhardt, Circuit Judges.
Per Curiam:*
Imeh Affiah sued Texas Southmost College under Title VII, alleging
racial discrimination, hostile work environment, and retaliation. The district
court granted summary judgment for the College on all counts. We affirm.

* Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

—■

No. 20-40045

It is illegal under Title VH for an employer to discharge an employee
because of “race, color, religion, sex, or national origin.” 42 U.S.C. § 2000e2(a). Under the familiar McDonnell Douglas burden shifting analysis, the
plaintiff must first make a prima facie case of discrimination. McDonnell
Douglas Corp. v. Green, 411 U.S. 792, 802 (1973). If he can, the burden shifts
to the defendant to “articulate a legitimate non-discriminatory reason for the
adverse employment action.” E.E.O.C. v. Chevron Phillips Chetn. Co., 570
F.3d 606,615 (5th Cir. 2009). Then the burden shifts back to the plaintiff to
show the stated reason is “pretextuaL ” Burton v. Freescale Semiconductor,
Inc., 798 F.3d 222,227 (5th Cir. 2015).
Affiah points to no evidence that can support his claims. Meanwhile,
Texas Southmost College’s evidence is uncontroverted and insurmountable.
The College hired Affiah as a dean for the 2016-17 school year. Within
months, nine students and employees filed complaints documenting
“detailed instances of unprofessional behavior and harassment.”
Affiah told one female student her voice was “sexy,” placed his hand
on her shoulder, and asked her on a date. He searched the Internet about a
professor, then asked if she had a boyfriend and told her he was looking for a
T .atina woman. He threatened to “call immigration” on a fellow employee.
These are on top of staff complaints about Affiah’s intimidating and
unprofessional conduct. At the district court, Affiah made “no attempt to
controvert this evidence, other than conclusory statements that the evidence
is fabricated.” His appeal here follows the same baseless tack. The College
was well justified to place Affiah on administrative leave and decline his
contract.
AFFIRMED.

2

APPENDIX B

Opinions of the United Southern District Court, Brownsville

United States District Court
Southern District of Texas

ENTERED
January 10, 2020
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
BROWNSVILLE DIVISION
IMEH U. AFFIAH,

§
§
§

Plaintiff,
VS.

§

TEXAS SOUTHMOST COLLEGE, et al.
Defendants.

David J. Bradley, Clerk

CIVIL ACTION NO. i:i8-CV-i96

§
§
§
§

OPINION AND ORDER
After Defendant Texas Southmost College (TSC) did not renew Plaintiff Imeh U. Affiah’s
employment contract with the institution, he filed this Title VII lawsuit alleging race-based
discrimination, hostile work environment, and retaliation. TSC moves for summary judgment
as to all causes of action. (Motion, Doc. 55) For the following reasons, the Court finds the
Motion well taken.
I.

Allegations and Procedural History1
Affiah is “Nigerian by birth and [an] American citizen.” (Am. Compl., Doc. 10, H 5)
On September l, 2016, TSC hired Affiah as Dean of Health Care, Career & Technical
%

Education.

(Ffausto Aff., Doc. 55-1, H 2; Am. Compl., Doc. 10, 1 32)

Beginning almost

immediately, concerns arose regarding Affiah’s behavior. TSC submits summary judgment
evidence detailing numerous complaints that TSC employees and students filed against Affiah
for acting inappropriately and unprofessionally, including complaints of sexual harassment.
(See, e.g., Frausto Aff., Doc. 55-1, H 3 (providing details of nine complaints filed against Affiah);
Boeta Aff., Doc. 55-14 (recounting her complaint against Affiah for sexual harassment); Cavazos
Aff., Doc. 55-15 (describing her complaint against Affiah for sexual harassment); Frausto
Memorandum to Interim TSC President Mike Shannon, Doc. 55-6 (summarizing student
1 In his Amended Complaint, Affiah adds Lissa Frausto and Mike Shannon as defendants. But the record does not
indicate that he ever served them, and they have not appeared in this lawsuit. Under Federal Rule of Civil Procedure
4(m), the Court gives notice to Affiah that if he fails to serve Frausto and Shannon by January 24,2020, the Court will
dismiss his claims against these defendants.
1/8

complaint against Affiah for harassment, the investigation, and the factual finding that the
student and Affiah “were equally inappropriate in their behavior toward one another”)).
In February 2017, five months after hiring him, TSC placed Affiah on administrative
leave with pay. (Frausto Aff., Doc. 55-1,1 2; Notice, Doc. 55-13) His contract expired on August
31 of that year. (Frausto Aff., Doc. 55-1, 1 2) TSC did not renew his contract, “due to the
number of complaints against him and conflicts with staff, faculty and students which led to
multiple investigations and some findings of inappropriate conduct on his part.” (Id.)
In his Amended Complaint, Affiah alleges that during his employment with the college,
TSC subjected him to racial discrimination. For example, he alleges that TSC paid him less than
two other deans employed at TSC who were of a different race. (Am. Compl., Doc. 10, UK16, 25)
And he alleges that Frausto, in her role as TSC’s Chief Human Resources Officer, “provided false
information on salary . . . once she [knew] that Plaintiff [was] of a different race and not
Hispanic.” (Id. at 128)
Affiah also alleges that he received disparate treatment by Frausto and TSC Interim
President Mike Shannon. For example, he alleges a number of personality and employmentrelated disputes between himself and Frausto, all allegedly motivated by Frausto’s racial bias.
(Id. at HH 34-40, 64-71, 73-79, 83-85) Affiah continues by alleging that Shannon treated him
disparately by refusing to meet with him to discuss departmental issues and potential
complaints of bias against Affiah by other staff members. (Id. at KK41-44, 53,70, 72, 77, 81) He
alleges that TSC’s handling of various complaints about him was unfair and further evidence of
Shannon and Frausto’s “consistent discrimination against Plaintiff because of his race and
color.” (Id. at 1171)

He also claims that Frausto altered records, created documents, and

solicited “fabricated sexual harassment charges” to justify his wrongful termination. (Id. at KK
82-85)

2/8

Affiah brought suit under Title VII after receiving a notice of right to sue from the Equal
Employment Opportunity Commission. (EEOC Dismissal and Notice of Rights, Doc. 1-2)
In October 2019, TSC filed its Motion for Summary Judgment. (Motion, Doc. 55) Affiah
filed no response within the applicable deadline, although it is unclear whether Affiah received
service of the Motion. (See TSC’s Notice regarding Re-Issuance of Service of Motion, Doc. 59)
On November 21, 2019, the Court ordered Affiah to file a response by no later than December 5,
2019, and indicated that Affiah’s failure to file a response would lead the Court to treat the
Motion as unopposed. (Order, Doc. 60)
On December 2 and 4, 2019, Affiah filed four letters, which in part detail his objections
to the Motion. (Pl.’s Letters, Docs. 62-65) In the letters, Affiah challenges some of TSC’s
contentions regarding the complaints against him, but he does not submit any summary
judgment evidence of his own. The Court considers Affiah’s letters as his response to the
Motion.2
II.

Analysis
Title VII makes it unlawful for an employer to discharge an employee because of his

“race, color, religion, sex, or national origin.” 42 U.S.C. § 20ooe-2(a), St seq. Based on Section
703 of Title VII, Affiah advances claims of race-based discrimination, hostile work environment,
and retaliation. (Am. Compl., Doc. 10, H 2) TSC argues that each claim fails as a matter of law
because Affiah cannot establish a prima facie case as to any cause of action. (Motion, Doc. 55, H
2) TSC also contends that, even if Affiah could establish a prima facie case of discrimination
under any theory, the summary judgment evidence demonstrates non-discriminatory, nonpretextual reasons for TSC’s decision to not renew Affiah’s contract. (Id.) This evidence,
according to TSC, precludes any genuine issue of a material fact and warrants summary
dismissal of Affiah’s causes of action.
2 Affiah also requested additional time to file another response. (Pl.’s Dec. 3rd Letter, Doc. 63) The Court denied the
request. (Order Denying Plaintiffs Request for Additional Time to Respond, Doc. 66)

3/8

A. Standard of Review
Summary judgment is proper if the evidence, viewed in the light most favorable to the
nonmoving party, shows that no genuine dispute of material fact exists, and that the movant is
entitled to judgment as a matter of law. Fed. R. Civ. P. 56(a); Matsushita Elec. Indus. Co. v.
Zenith Radio Corp., 475 U.S. 574, 587 (1986). A genuine dispute over material facts exists if the
evidence presents an issue “that properly can be resolved only by a finder of fact because [it]
may reasonably be resolved in favor of either party,” and the fact at issue might affect the
outcome of the case. Anderson v. Liberty Lobby, Inc. 47 U.S. 242, 248, 250 (1986). The moving
party “bears the burden of identifying those portions of the record it believes demonstrate the
absence of a genuine issue of material fact.” Triple Tee Golf, Inc. v. Nike, Inc., 485 F.3d 253, 261
(5th Cir. 2007) (citing Celotex Corp. v. Catrett, 477 U.S. 317, 322-25 (1986)). All facts and
inferences drawn from those facts must be viewed in the light most favorable to the nonmovant.
Scott v. Harris, 550 U.S. 372, 378 (2007).
If this evidence is provided, the burden then shifts to the responding party to present
affirmative evidence to defeat the motion. Anderson, 477 U.S. at 257. “[T]he nonmoving party
must set forth specific facts showing the existence of a ‘genuine’ issue concerning every essential
component of its case.” Morris v. Covan Worldwide Moving, Inc., 144 F.3d 377, 380 (5th Cir.
1998) (citing Anderson, 477 U.S. at 255-57).

“Unsubstantiated assertions, improbable

inferences, and unsupported speculation, however, are not sufficient to defeat a motion for
summary judgment .’"Brown v. City of Houston, 337 F.3d 539, 541 (5th Cir. 2003) (internal
quotation marks omitted).
B. Discrimination and Hostile Work Environment
Title VII prohibits discrimination “against any individual with respect to his
compensation, terms, conditions, or privileges of employment, because of such individual’s race,
color, religion, sex, or national origin.” 42 U.S.C. § 2000e-2(a)(i). Generally, to maintain a
4/8

claim under Title VII, a plaintiff must demonstrate a prima facie case of discrimination. See
Laxton u. Gap, Inc., 333 F.3d 572, 578 (5th Cir. 2003); see also McDonnell Douglas Corp. v.
Green, 411 U.S. 792, 802 (1973). To meet this initial burden, “the plaintiff must either present
direct evidence of discrimination or, in the absence of direct evidence, rely on circumstantial
evidence using the McDonnell Douglas burden shifting analysis.”

Wittmer v. Phillips 66 Co.,

915 F.3d 328, 332 (5th Cir. 2019). When the plaintiff alleges that he was discharged or
otherwise treated discriminatorily by his employer, the plaintiff must show that (1) he is a
member of a protected class, (2) he was qualified for his position, (3) he suffered an adverse
employment action, and (4) others similarly situated were more favorably treated or that the
plaintiff was replaced by someone outside the protected class. See Willis v. Coca Cola Enters.,
Inc., 445 F.3d 413,420 (5th Cir. 2006).
If a plaintiff establishes a prima facie case, an inference of discrimination arises, and the
burden shifts to the defendant to present evidence that the adverse employment action was
taken for a legitimate, non-discriminatory reason. Rutherford v. Harris Cty., Tex., 197 F.3d 173,
180 (5th Cir. 1999). Once an employer articulates a legitimate, non-discriminatory reason and
produces competent summary judgment evidence in support of that staffed reason, the inference
of discrimination disappears, and the burden of proof shifts back to the plaintiff to demonstrate
that the employer’s articulated reason for the adverse employment action was merely a pretext.
Rutherford, 197 F.3d at 180.
Similarly, to support a hostile work environment claim, the plaintiff must initially
establish a prima facia case demonstrating that the alleged harassment was tied to a protected
characteristic or activity. The elements of a prima facia case include that: “(1) the employee
belongs to a protected group; (2) the employee was subjected to unwelcome harassment; (3) the
harassment complained of was based on race; (4) the harassment complained of affected a term,
condition or privilege of employment; [and] (5) the employer knew or should have known of the
5/8

%

uase

i:io-uv-uujl»u

UUUUIIIUIu. I w

harassment in question and failed to take prompt remedial action.” Brew v. Weyerhaeuser NR
Co., 537 Fed.Appx. 309, 313 (5* Or. 2013) (citing Celestine v. Petroleos de Venezuella SA, 266
j? 3d 343, 353 (5th Cir. 2001) abrogated on other grounds by Nat’l R.R. Passenger Corp. v.
Morgan, 536 U.S. 101,110-115 (2002)); Jones v. Flagship Int'l, 793 F.2d 714* 719 (5th Cir. 1986)
(adopting the Eleventh Circuit’s “hostile work environment” paradigm).
In the current matter, as to both the claims of discrimination and a hostile work
environment, Affiah fails to establish a prima facie case of discrimination. Affiah alleges that
the adverse employment actions he endured include his “unlawful termination” and his
subjection to a

hostile work environment. (Am. Compl., Doc. 10, 1H1 92~96; Pi. s Nov. 25th

Letter, Doc. 64, 3; Pl.’s Dec. 3rd Letter, Doc. 63, 5) But he presents no summary judgment
evidence to support these allegations. As a result, the summary judgment record, even when
viewed in the light most favorable to Affiah, does not demonstrate that TSC engaged m an
adverse employment decision based on Affiah’s race or any other protected category.
On the contrary, TSC presents ample summary judgment evidence regarding numerous
com

plaints that TSC employees and students filed against Affiah, and supporting TSC s position

that it chose to not renew Affiah’s contract due to these complaints. This evidence remains
uncontroverted. As a result, even if Affiah had satisfied his burden to demonstrate a prima
contract
facia case of discrimination, TSC has established that its decision‘regarding Affiah’s
Affiah makes no attempt to show that
was based on a legitimate, non-discriminatory reason.
this reason was pretextual and no genuine issue of material fact exists on the matter.3
C. Retaliation
In order to pursue a retaliation claim under Title VII, a plaintiff must establish a prima
facie case showing: (1) that he engaged in activity protected by Title VII, (2) that an adverse
employment action occurred, and (3) that a causal link existed between the protected activity

3 Affiah’s condusory argument that TSC’s summary judgment evidence is fabricated finds no support in the record.

6/8

|

and the adverse action. Ackel v. Nat’l Communications, Inc., 339 F.3d 376, 385 (5th Cir. 2003).
With respect to the third element, the claimant “must establish that [his] protected activity was
a but-for cause of the alleged adverse action.” Zamora v. City Of Houston, 798 F.3d 326, 331
(5th Cir. 2015) (quoting Univ. of Texas Sw. Med. Ctr. v. Nassar, 570 U.S. 338, 360 (2013)).
Protected activity” is defined as opposition to any practice made unlawful by Title VII, including
making a charge, testifying, assisting, or participating in any investigation, proceeding, or
hearing under Title VII. Green v. Administrators ofTulane Educ. Fund, 284 F.3d 642, 657 (5th
Cir. 2002), as amended on denial of reh’g and reh’g en banc (Apr. 26, 2002) (citing 42 U.S.C. §
2000e-3(a)).

If the plaintiff satisfies his initial burden, an inference of discrimination arises, and the
burden of proof shifts to the defendant to articulate a legitimate, non-discriminatory reason for
the challenged employment action. See, e.g., Shackelford v. Deloitte & Touche, LLP, 190 F.sd
398, 4°8 (5th Cir. 1999) (citing McDonnell, 411 U.S. at 801—803). “If the defendant satisfies
this burden, the plaintiff must prove that the proffered reasons are pretextual.” Shackelford,
190 F.3d at 404.
In the present case, Affiah alleges that TSC retaliated against him after he made
“informal and formal complaints to Defendant . . . opposing Defendants’ unlawful,
discriminatory employment practices based on race and color.” (Am. Compl., Doc. 10, H 101)
Affiah contends that his complaints led TSC to take “materially adverse actions against Plaintiff
• • • [by] failing to evaluate the plaintiffs performance, subject[ing] plaintiffs complaints to
ridicule and initiating] termination of Plaintiffs employment.” (Id. at 1102) But Affiah offers
no competent summary judgment evidence even suggesting that his complaints were a but-for
cause of TSC’s decision to not renew his contract.* As a result, he fails to meet his burden to

-> Affiah also alleges that Defendants engaged in “retaliatory workplace harassment” by failing to meet with him,
allowing employees to make disparaging remarks about him, defaming him, and failing to evaluate his performance.
(Am. Compl., Doc. 10, 79—82,102) But these allegations do not constitute “adverse employment actions” within
the rpeaning of Title VIL See Stewart v. Miss. Transp. Comm’n, 586 F.3d 321, 332 (5th Cir. 2009) (concluding that

establish a prima facia case of retaliation. Even if he had, TSC has articulated legitimate, nondiscriminatory reasons for not renewing Affiah’s employment contract. The summary judgment
evidence demonstrates that during Affiah’s brief employment at TSC, co-workers and students
filed nine formal complaints against him.
complaint))

(Frausto Aff., Doc. 55-1, (summarizing each

These complaints include detailed instances of unprofessional behavior and

harassment by Affiah, who makes no attempt to controvert this evidence, other than conclusory
statements that the evidence is fabricated. (See Pl.’s Dec. 3rd Letter, Doc. 63) No genuine issue
of material fact exists on the matter.
' III.

Conclusion
For these reasons, it is:
ORDERED that Defendant Texas Southmost College’s Motion for Summary Judgement

(Doc. 55) is GRANTED; and
ORDERED that Plaintiff Imeh U. Affiah’s causes of action against Defendant Texas
Southmost College are DISMISSED WITH PREJUDICE.
SIGNED this 10th day of January, 2020.

Fernando Rodriguez, Jr. U^ '
United States District Judge

ostracism is a minor annoyance, not a materially adverse employment action); Aryain u. Wal-Mart Stores Tex. LP,
534 F-3d 473> 484-85 (5th Cir. 2008) (explaining that rude treatment by a supervisor is not a materially adverse
action under Title VII). In any event, Affiah offers no summary judgment evidence as to these allegations.

8/8

«

APPENDIX C Briefs submitted by Plaintiff to the US Court of Appeals, 5th Circuit

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

NO. 20-40045

Imeh U. Affiah
Plaintiff-Appellant,
v.
Texas Southmost College, Lissa Frausto, Mike Shannon,
m

Defendants-Appellees

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
BROWNSVILLE DIVISION

INITIAL BRIEF OF APPELLANT
CRIMINAL APPEAL

Imeh U. Affiah, Appellant
(Currently on Pro-Se Filing Status)

10001 Club Creek Drive, # 207
Houston, Texas 77036
337-962-8224 (Tel)
PatiencelO@Juno.com (e-mail)

CERTIFICATE OF INTERESTED PERSONS
I certify that the following individuals may have an interest in the outcome of this case. I. make
these representations in order that the members of this Court may evaluate possible
disqual ifications or recusal.

a. Appellant:

Imeh U. Affiah

b. Defendants:

Defendants Attorney, Mr. Garza

c. The U.S. Southern District court, Brownsville Division, Texas

i

STATEMENT REGARDING ORAL ARGUMENT
This case involves some questions meriting argument:
Why?
(a) The District Court relied solely on a two-page summary judgement of Defendants
without reviewing documents and concerns raised by Plaintiff prior to summary
judgement by Defendants (Plaintiff notified the Court that most of the documents
were full of fabrications, inconsistencies and contradictions as well as false
representations of the facts. Defendants summary judgement under oath contradicts
and inconsistent with their under oath supporting documents)
(b) The District Court failed to verify the validity of the documents provided by
Defendants even after Plaintiff brought this to their attention. Also, why the
District Court failed to give Plaintiff any opportunity to refute Defendants’
summary judgement with the understanding of Plaintiff filing status (Why
District court relied on one sided argument)
(c) The District court failed to review all the so-called nine complaints, most of them
seen for the first time by Plaintiffand asked the same questions that the EEOC
asked. Some of the Defendants fabricated complaints do not make any sense. Most
of the complaints based on Defendants documents lack of direct written statements
from the accusers other than Lissa Frausto’s opinions and hearsay. In some of the
complaints, Lissa Frausto claimed they were filed through phone calls. If these
complaints existed, what did Defendants do even after one or two complaints to
address the issues.
(d) The District Court failed to question why Lissa Frausto (then HR director and
after Plaintiff was fired promoted to Executive HR director) was solely the accuser,
committee, investigator and judge of Plaintiff. Lissa Frausto had a motive from the
onset.
(e) The District Court and Defendants accepted amended complaints by Plaintiff and
waited for one year to raise objection. As a Pro se Appellant, why did Defendants
not file any motion within the 120 days and now the court is arguing for them.
If the District Court had considered some or all of the information indicated above, the ruling by
the Court would have been reversed.
Oral arguments are very necessary to address volumes of contradicting and fabricated
documents produced by Defendant, Lissa Frausto.
ii

TABLE OF CONTENTS
CERTIFICATE OF INTERESTED PERSONS.........

PAGE
1

STATEMENT REGARDING ORAL ARGUMENT

ii

TABLE OF AUTHORITIES

iv

STATEMENT OF JURISDICTION

1

STATEMENT OF ISSUES PRESENTED FOR REVIEW

.2

STATEMENT OF THE CASE

.3

I. Facts and Proceedings Below

.3

II. Summary of the Argument...

15

CONCLUSION.

.20

CERTIFICATE OF SERVICE

.21

CERTIFICATE OF COMPLIANCE

.22

i

iii

TABLE OF AUTHORITIES

Appellant has no legal background and is incapable of providing
Legal citations, Authorities, Statutes, Rules, United States guidelines manual, and
Miscellaneous. The information provided by Appellant is based on facts as the
incidents occurred rather than fiction and fabrications after two to three years of
filing the law suit.

iv

STATEMENT OF JURISDICTION
1. Subject Matter and Jurisdiction in the District Court. This case arose
from the prosecution of an offense against Texas Southmost College, Lissa Frausto and Mike
Shannon (collectively Defendants) against the laws of the United States of America.
The Southern District Court, Brownsville division had jurisdiction of this case.
2. Jurisdiction in the Court of Appeals. This is a direct appeal from a
final decision of the U.S. District Court for the Southern District of Texas, Brownsville Division,
entering judgment of dismissal.
This Court has jurisdiction of the appeal
The district court entered written judgment of Dismissal on January 28, 2020, after Appellant
had already initiated the appeal process on January 27, 2020. Appellant filed notice of appeal
after a series of inconsistencies and discrepancies by the Southern District Court, Brownsville
Division in this case. Documents from the docket filed by Appellant support these claims.

1

STATEMENT OF THE ISSUES PRESENTED FOR REVIEW
I.
Whether the district court committed reversible factual or legal error as
it pertains to the case in question?

2

STATEMENT OF THE CASE
I.

Facts and Proceedings Below

My (Plaintiff) understanding of “Race or Color Discrimination in the workplace” is based on
the on the following descriptions by the Federal Government:
“Workplace discrimination can extend beyond hiring, firing, or limiting wages and
opportunities for advancement. It also occurs when other employees or even the employer
ridicule or make fun of an employee because of that employee's race or treat the employee with
obvious anger or hostility. This is harassment, and workplace harassment is against the law.
Employers are legally responsible for the behavior of their other workers in this situation.
Racial discrimination exists any time an employer singles someone out and treats that employee
differently based on skin color and physical characteristics associated with race”
This case meets the criteria above.
The offense
This is a case of Racial Discrimination resulting in Job Harassment and Defamation of
Character initiated and carried out by Lissa Frausto culminating in the Unlawful termination
of Imeh U. Affiah employment at Texas Southmost College (TSC). Lissa Frausto singled out
Dean Affiah and treated him differently compared to other deans and employees. Imeh U.
Affiah is referred to in this document as “Dean Affiah or Plaintiff or Dr. Affiah.
Dr. Affiah outlines a series of events to support his case of racial discrimination
resulting in job harassment and defamation of character that culminated in the unlawful
termination of his appointment.
FACTUAL ALLEGATIONS
At all times material to this action, Plaintiff was employed as Dean of Flealth Care, Career
& Technical Education at TSC. As part of his jobs, Plaintiff was responsible for Complete
Supervision and Coordination of all activities in the division, including and not limited to
Instruction, Budgets, Faculty and Staff and their professional developments.
Plaintiff was more qualified in terms of credentials and years of experience pertinent to this
position compared to the previous employees that held the position and compared to the other
two Deans at the time. Plaintiff did not work under the supervision of HR director, Frausto.

3

Plaintiff was employed by Dr. Lily Tecero. At the time of Plaintiffs final interview with Dr.
Tecero, Plaintiff was told by Dr. Tecero that the initial salary will be consistent with his
credentials and years of experience at initial annual rate of $90,000.00. This amount is consistent
with the information provided to the EEOC at the preliminary hearing, (see Exhibit A, page 2
paragraph 5)
On or about August 2, 2016, Lissa Frausto, the Human Resources director called Plaintiff and
asked him when he can report for work. Lissa Frausto then told Plaintiff that Dr. Tecoro’s
employment was terminated and Mike Shannon was named interim president. During that phone
conversation and before discussing salary, Lissa Frausto specifically asked Dr. Affiah “Where
are you from originally and how do you describe yourself?”, which he responded accordingly
without any reservation.
Defendant Lissa Frausto then told Plaintiff that the offer for his employment as the dean will be
$72,920.00. This amount was much less than the initial fixed rate of $90,000.00 as stated by Dr.
Tecero at the final interview, (see Exhibit A, page 1,2 paragraph 5). In retrospect, Dr. Affiah
believes that was the beginning of the racial hatred and bias by Lissa Frausto and as the
documents she provided depict that she was knowledgeable of the offer for this position.
Plaintiff immediately rejected the offer and requested to discuss his counter offer with the
interim president, Defendant Mike Shannon because Dr. Tecero had told him differently.
Defendant Lissa Frausto refused the request and stated that the Interim President was too busy
and she will discuss Plaintiff’s request with Defendant Mike Shannon.
On August 03, 2016, Defendant Lissa Frausto sent Plaintiff an email stating that she spoke with
the President and that the President needed couple of days to see whether they could increase the
current offer. (Exhibit A, page 1). On August 05, 2018, Defendant Lissa Frausto called and
indicated that the interim President placed the offer at $88, 999.00, which she said was the same
salary for each of the current deans. On the August 05, 2016, Plaintiff accepted the employment
and requested documentation of the employment and the starting salary.
On August 08, 2016, Defendant Lissa Frausto e-mailed the letter of employment to Plaintiff and

4

requested for Plaintiff to sign and accept employment, (see Exhibit B)
At that time of negotiating employment, Defendant Lissa Frausto deliberately provided false
information on salary to the Plaintiff once she knew that Plaintiff is black. A stereotype by some
people like Lissa Frausto (Hispanic) that blacks have no class and standards and will settle for
anything less. This notion is clearly seen in the treatments and accusations of Plaintiff by
Defendants.
As a normal policy, it is the President and not the director of Human Resources that has the
authority to negotiate the salary and benefit for a position as a dean. In other institutions that
Plaintiff had worked, a dean reports directly to the president. The other deans at TSC reported
directly to Mike Shannon. The fact that Lissa Frausto treated a new dean like Plaintiff as her
subordinate was discrimination. Plaintiff being from a different race from Lissa Frausto is racial
discrimination.
On or about September 1, 2016, Plaintiff resumed his position as the Dean of the Health Care,
Career & Technical Education. On or about September 05, 2016, Plaintiff discussed with
Defendant Lissa Frausto about his reimbursement for relocation to Brownsville. Defendant Lissa
Frausto became belligerent and hostile and tried to intimidate Plaintiff. Defendant Lissa Frausto
mocks the Plaintiff that TSC is not a private institution (probably because Plaintiff had worked at
2-year private institution before) and does not offer any payment for relocation.
On September 20, 2016, Plaintiff received a notice from the Texas Retirement System (TRS)
questioning Plaintiff’s social security number. Plaintiff called the TRS immediately and was
advised to contact Defendant’s Human Resources to ensure that Plaintiff’s records reflect the
correct social security because the error may affect his other benefits). TRS also requested
Plaintiff to ask Defendant to inform the TRS of the correction immediately.
On September 21, 2016, Plaintiff called the TSC Human Resources and related the information
from the TRS. On September 30, 2016, Plaintiff called the TRS and was told that they did not

5

receive any correction from the TSC Human Resources. Plaintiff called the TSC Human
Resources immediately to request the correction again. Defendant Lissa Frausto was on the line
with Plaintiff during this call Lissa Frausto immediately without checking, became irate and
indicated to Plaintiff that he had provided the wrong social security number on his employment
application form. Plaintiff asked Lissa Frausto whether criminal background check was
performed on him. Lissa Frausto answered “of course yes” Plaintiff indicated Lissa Frausto that
criminal background check on anyone is impossible without the correct social security number.
Defendant Lissa Frausto was very rude in her approach and angrily informed Plaintiff not to call
the Human Resources’ office on that issue again and hung up the phone abruptly. Defendant
Lissa Frausto's behavior contravened the treatment Plaintiff had seen her expressed to other
deans in the school. This disparage and unprofessional treatments evidenced in the
discriminatory action by Defendant Lissa Frausto.
After this interaction between Plaintiff and Defendant Lissa Frausto, Plaintiff was concerned
with Defendant Lissa Frausto treatments so far and decided to discuss the matter with the Interim
President, Defendant, Mike Shannon, about the first week of October, 2016. Every attempt by
Plaintiff to schedule a meeting was unsuccessful.
Plaintiff discovered that Defendant Mike Shannon had avoided any meeting with Plaintiff
despite the fact he had scheduled meetings with other deans. This differential treatment of
Plaintiff by the Defendant Mike Shannon continues throughout PlaintifTs employment.
Plaintiff decided to appear at a Tuesday, 11th October, 2016, meeting which Defendant Mike
Shannon arranged with the other Deans and some employees including Lissa Frausto but was not
allowed into meeting. In retrospect, this reaction by the other deans made Plaintiff to believe that
the racial discriminatory treatments against him were not isolated but coordinated by Lissa
Frausto. The subsequent incidents confirm the claim by Plaintiff.
Approximately, within the same week of October 2016, Ms. Diaz of Early Childhood program

6

in the division Plaintiff supervised requested two rooms from Plaintiff. Plaintiff denied Ms.
Diaz's request after found out that Plaintiff’s predecessor denied Ms. Diaz’s the same request
because Ms. Diaz was trying to avoid interacting with other members of the Daycare center.
Plaintiff called a meeting of the Early Childhood program faculty and staff to discuss the need
for all of them to get along for the sake of the students. Everyone in the program attended the
meeting except Ms. Diaz. Plaintiff tried through his secretary to get in touch with Ms. Diaz but
there was no response. The following day, Plaintiff talked with Ms. Diaz in her office. Ms. Diaz
explicitly indicated to Plaintiff that she was afraid of Plaintiff because she had never worked
under someone of his culture/color before. Plaintiff later discovered that Ms. Diaz had made a
similar and racially charged statement concerning Plaintiff to Dr. Ronilda Henson (instructor in
Early Childcare program as Ms. Diaz). This also confirmed Plaintiff’s belief that his
race/color played a key role to the discriminatory treatments he was experiencing and was
not isolated. Records show that Ms. Diaz did not take any action against Plaintiff’s predecessor
who denied her the same request. However, approximately two days later, Ms. Castillo (a close
friend to Ms. Diaz), Business Information Technology Chairperson, a staff under Plaintiff
requested a meeting with Plaintiff. Ms. Castillo indicated to Plaintiff during the meeting that Ms.
Diaz had requested her company to see Defendant Lissa Frausto to file a complaint because Ms.
Diaz was afraid of Plaintiff, but Ms. Castillo refused.
Furthermore, Ms. Castillo stated to Plaintiff that she just had a meeting with Defendant Mike
Shannon because she was unhappy with the unfair treatments given to Plaintiff. Ms. Castillo
indicated to Plaintiff that she told Defendant Mike Shannon that Plaintiff had done so much
improvements to the division in a short amount of time and that she believed that other
employees are treating Plaintiff unfairly to get him fired. Plaintiff indicated to Ms. Castillo that
he had not done anything in violation of the TSC policies and he was not worried. Plaintiff
noticed that Defendant Mike Shannon had the time to meet with other people except Plaintiff
who had made numerous attempts of a meeting with Defendant Shannon. This clearly shows

7

...

the differential treatment of Plaintiff by Defendant Mike Shannon. Defendant Mike
Shannon consistently undermined Plaintiff’s authorities as the Dean and violated normal
policies and procedures of the institution. This undermining of Dean Affiah authorities by
Defendant Mike Shannon was not extended to other deans. This is evidence of racial
discrimination. In one of his meetings, Defendant Mike Shannon discussed and removed a
section from Plaintiffs division and added it to STEM (Science, Technology, Engineering,
Mathematics) division to create a position for another individual (Abusalin, a Pakistanian
American) without Plaintiff involvement in or knowledge of the discussion. Plaintiff found
out of this decision during the Board of Trustees meeting that he is required to attend.
Defendant Mike Shannon continued to undermine Plaintiffs position by requesting Plaintiffs
subordinate to arrange meetings of the division with outside professionals without Plaintiff s
prior knowledge and Plaintiff was never invited to such meetings.
This Plaintiffs subordinate (Scot Nelson, white) was named interim Dean by Defendant Mike
Shannon two days after Plaintiff was terminated.
One of the conditions Plaintiff was employed by previous President, Dr. Lily Tecero was to
resolve the Probation issues regarding the Associate Degree Nursing (ADN) program. The
interim president, Defendant Mike Shannon side stepped the Plaintiff and directed all enquiries
regarding the Associate Degree Nursing program to Ms. Melinda Rodriguez (Institutional
Advancement) without Plaintiff s prior knowledge or input. Ms. Melinda Rodriquez had no
credential or experience in technical careers, sciences, healthcare and her department was not
related to Plaintiff. Plaintiff heard of the decision by Mike Shannon through the news media.
These actions by Mike Shannon’s actions reinforces Plaintiffs belief of racial
discrimination and disparate treatment by Defendant, Mike Shannon
In mid-October 2016, Plaintiff was approached by Christopher Green (a black Veteran
student) in the parking lot about his interest in the Respiratory Therapy Assistant Program.

8

Plaintiff advised Mr. Green to contact the program director of the Respiratory Therapy Assistant
Program (Mr. Ramos) directly to express his interest in the program. Ms. Joanna Cervantes
(Administrative Assistant assigned to the Respiratory Therapy Assistant program) denied Mr.
Green opportunity to meet with the program director (Mr. Ramos) citing that Mr. Green was not
qualified despite his good grades and without knowledge of Mr. Green’s background besides the
color of his skin. Mr. Green notified Plaintiff of the action of Ms. Joanna Cervantes and Mr.
Green believed that the only reason he could think of was his race and skin color because it was
his understanding that another black veteran (a lady) was treated similarly in the past.
Plaintiff, in his capacity as the dean, met with Mr. Rene Valdez, the Director of Veteran Upward
Bound for TSC and University of Texas Rio Grande Valley, (UTRGV) at the time, to facilitate a
meeting between Mr. Green and the director of the Respiratory Therapy Assistant Program, Mr.
Ramos that Ms. Joanna Cervantes denied Mr. Green. This is contrary to fabricated document
provided by Defendant, Lissa Frausto that Plaintiff called Mr. Ramos to set up the meeting
for Mr. Green.
In early November 2016, the same Ms. Joanna Cervantes sent an open e-mail to some program
directors correcting them on issues without Plaintiff s authorization and only copied Plaintiff.
Plaintiff responded to Ms. Joanna Cervantes e-mail and indicated that that was the second time
in a few weeks that Ms. Joanna Cervantes had gone outside the scope of her job responsibilities
without discussing the matter with Plaintiff or her immediate supervisor.
Approximately a week after that incident, Ms. Joanna Cervantes started showing attitude and
disrespect towards Plaintiff for a matter not related to her but direct e-mail requesting a
document from Ms. Joanna Cervantes supervisor. Plaintiffs administrative assistant indicated
that she was surprised because Ms. Joanna Cervantes never treated the previous Dean in the
same manner. Plaintiff considered Ms. Joanna Cervantes' behavior plus the incident with Mr.
Green (student) as race related issues and requested a meeting with Ms. Joanna Cervantes,
Defendant Lissa Frausto (HR director, EEOC representative for TSC to handle race issues) and
9

Mr. Rene Valdez (then Veterans Upward Bound) as a witness.
At that meeting, Defendant Lissa Frausto did not allow Ms. Joanna Cervantes to respond to the
allegations that Plaintiff raised and requested to have private meeting with Ms. Joanna Cervantes
in her office. This move by Defendant Lissa Frausto was suspicious. The following day,
Defendant Lissa Frausto requested Mr. Green’s (student) contact information from Plaintiff who
referred her to Veterans Upward Bound representative, Mr. Rene Valdez for that information.
Information she that Lissa Frausto could have accessed from the student’s records.
Two days later, Defendant Lissa Frausto sent a memo indicating that she completed her
investigations and found Ms. Joanna Cervantes not in violation of any wrongdoing even though
all evidence showed otherwise, (see Exhibit C) Plaintiff called and asked Defendant Lissa
Frausto whether she discussed the issue with Mr. Green and Defendant Lissa Frausto said “yes”
to Plaintiff. Flowever, Plaintiff learned from Mr. Green that Defendant Frausto did not talk to
Mr. Green nor did she talk to Mr. Rene Valdez. Just of a sudden in 2019 when Mr. Valdez is
working for TSC exclusively, Lissa Frausto produced a document that she interviewed him. This
is another evidence of fabrication of document by Lissa Frausto.
Plaintiff also learned from Mr. Green (after he called Lissa Frausto upon hearing of her
conclusions) that Defendant Lissa Frausto told Mr. Green that it was not necessary for her to
contact him because Ms. Joanna Cervantes was no longer working for the college. This was a
false assertion and Ms. Joanna Cervantes still works for TSC and always worked at TSC at those
periods. Upon knowing of the false statement from Ms. Frausto, Mr. Green requested a meeting
with Defendant Mike Shannon as the supervisor to Defendant Lissa Frausto but was
systematically denied a meeting with Defendant Mike Shannon as it has been done on many
occasions to the Plaintiff. Mike Shannon’s office told Mr. Green whether Plaintiff advised him
to talk to Mike Shannon and advised Mr. Green to go to student services instead. The actions by
Defendant Mike Shannon and Defendant Lissa Frausto on this issue were consistent
discrimination against Plaintiff because of his race and color compared to other races.
10

Lissa Frausto sent a memo through Donald Crouse citing that e-mail to Ms. Joanna Cervantes
(Administrative assist) was a public reprimand (see Exhibit D). (Note: This was about four
days after I had reported Ms. Joanna Cervantes. This contradicts the time Lissa Frausto
claimed that Ms. Cervantes filed complaint against Plaintiff. This action is consistent with
Lissa Frausto continuous thirst and quest to find any allegation or complaint against
Plaintiff. This action also confirms that Lissa Frausto motive all along.
Defendant Mike Shannon as Interim President and head of the institution had meetings, and
found time to have meetings with other employees and outsiders while denying Plaintiff any
meeting for an extended period even with Plaintiff s several requests for a meeting.
On or about late November 2016, Plaintiff noticed an overload in course schedules which
resulted in excessive payments to some faculty members. This action of overload constitutes
fraud and unlawful conduct against the Texas Board of Education. Plaintiff met privately with
those involved and sent e-mails to only all the faculty members under his supervision to refrain
from such acts and that if such actions were repeated, he would not approve the payments.
Defendant Lissa Frausto was never sent a copy of that e-mail.
Approximately two days later, Defendant Lissa Frausto sent an e-mail to counter the instructions
of Plaintiff indicating that overloads would always be paid without contacting Plaintiff,
undermining Plaintiffs authority. Lissa Frausto also copied faculty members in Plaintiffs
division in her e-mail. This is not only undermining Plaintiff authorities but deliberate racial
discrimination as there is no evidence that she treated others (all of other races) similarly. Once
again, Lissa Frausto was never Plaintiffs supervisor.
On or about first week in December 2016, Defendant Mike Shannon had a meeting with Mr.
Feist (a person of interest to TSC and a regular attendee of the Board of Trustees TSC meetings)
and discussed some damaging allegations about Plaintiff from Defendant Lissa Frausto.
Mr. Feist communicated without specifying any allegation to Plaintiff who immediately and

11

again requested a meeting with Defendant Mike Shannon. Mr. Feist also tried to facilitate the
meeting between Defendant Mike Shannon and Plaintiff but to no avail.
On or about January 12, 2017, while Plaintiff was participating in the selection process of the
Vice President of Instruction interview, Ms. Amaral (who explicitly had voiced her racial hatred
towards Plaintiff) raised false allegation to the committee members (a student included) that
Plaintiff was sued previously by another entity and said that “Plaintiff was unfit to work for
TSC.” Although Plaintiff was angry, he did not respond and tried to schedule a meeting with
Defendant Mike Shannon to report the incident but was unsuccessful.
At the end of the interview process, Ms. Amaral repeated the exact allegations in the presence of
Defendant Lissa Frausto and Defendant Mike Shannon. Defendant Mike Shannon specifically
condoned the allegation made by Ms. Amaral by indicating to her that he will look into her
allegation. This action shows his racial bias against Plaintiff as well as indicating that Defendants
were receptive of any allegation against Plaintiff to cover up their racial bias and discrimination
Plaintiff raised his objection to the behavior and request for a meeting with Defendant Mike
Shannon just before he left the meeting. Defendant Mike Shannon rushed out before the end of
the meeting and promised to get back with Plaintiff but never did.
The lack of action by Defendant Mike Shannon emboldened Ms. Amaral. A week after this
incident, Ms. Amaral continued her disparage remarks of Plaintiff. Ms. Amaral began to
spread unsubstantiated damaging sexual harassment information about Plaintiff to other faculty
members in order to defame Plaintiffs character. This is contrary to the fabricated documents
filed by Lissa Frausto (Defendant) that Ms. Amaral only told the appropriate authorities. One of
the faculty members is Black and was threatened not to provide a statement or be deposed by my
attorney then.
Plaintiff filed a defamation lawsuit against Ms. Amaral at the District Court, Brownsville. The
legal counsel for Ms. Amaral (who is now representing TSC, Lissa Frausto and Mike

12

Shannon) filed a motion prohibiting Ms. Amaral and the two young ladies she used in the
defamation law suit from cross examination and depositions. The Court did not deny or grant this
motion, rather refused to listen to both Plaintiff and Defendants legal counsels and dismissed the
case citing “ANTISLAPP” law.
I must point out because of this ruling by the State Court that Defendants decided to get rid of
their attorney and hire the current attorney, Mr. Garza for this case. This also evidence that
Defendant Lissa Frausto was soliciting complaints from her friends as she did not have the
so-called series of complaints to justify her argument.
On February 22, 2017, Defendant Lissa Frausto presented a letter of employment termination
signed by Defendant Mike Shannon citing that many complaints were filed against Plaintiff as
the main reason for the termination.
Defendant Lissa Frausto failed to provide evidence of complaints filed, when filed, who filed,
how they were resolved to Plaintiff attorney and to the EEOC when requested, (see Exhibit E,
bottom page 2 of Defendant, Lissa Frausto response; page 5, question # 6 of Plaintiff
response). It took Defendant Lissa Frausto with the help of her new attorney over two
years to fabricate documents and dates of complaints to present to the Southern District
court. Plaintiff consistently pointed this out to the District court but to no avail. Please a
thorough review of the EEOC responses in Exhibit E by Defendant Lissa Frausto and rebuttal
by Plaintiff clearly show how Defendant deliberately provided false information to deceive and
cover up illegal actions. On Septemberl4, 2019, Plaintiff received a flash drive from Defendants
attorney with documents that Defendants planned to use in their defense. These documents dis
not include the so-called investigations and interviewing people known and unknown to Plaintiff.
On Wednesday, November 20, 2019, Plaintiff receive a large envelop with tons of document
containing interviews with Plaintiffby Lissa Frausto that never happened; cut and paste e-mails,
fabricated dates; fabricated phone calls between Lissa Frausto and other employers on matters

13

concerning Plaintiff. Plaintiffjust saw these documents for the first time. These are documents
Defendants claimed to use in their defense. The inconsistencies and the volumes of information
in these two sets of documents depicts the time and energy that Lissa Frausto and her attorney
have put in fabricating these documents. Once again, these are documents that never existed in
2017, 2018 but suddenly appear at the end of 2019 that Plaintiff is seeing for the first time.
Most importantly, in these documents, Lissa Frausto exposed herself of deep racial hatred and
defamation of Plaintiff character by discussing sexual harassment allegation against Plaintiff
with other employees without ever determining the merits of the allegation. To Defendants and
the Southern court if this is not unprofessional behavior far worse than what Defendants are
accusing Plaintiff, Plaintiff does not know what else is. Lissa Frausto also discussed with other
employees how she was going to garnish Plaintiff wages because he had been out sick according
to doctors orders. Once again, Lissa Frausto was never Plaintiff supervisor but had a motive that
Mike Shannon failed to intervene and the other employees do not work at the human resources
department and had no right to personnel matters. The Southern court failed to review or
ignored these documents.
Defendant Lissa Frausto claimed that she investigated the fabricated sexual harassment charges
and concluded that there was NOT enough evidence to warrant sexual harassment claim.
Evidence shows that Defendant Lissa Frausto was so determined to carry out the racial
discriminatory actions, defamation of character and job harassment culminating in the
termination of Plaintiff employment. A thorough review of following exhibits with notes (F, G,
H, I, J, K, L, M, N, O, P, Q, R, S, T, U, V) demonstrate these claims without further
explanations. A comparison of the information from these exhibits with the information that
Lissa Frausto has recreated with Defendants new attorney clearly show discrepancies that the
District Court failed to see. In the meantime, Plaintiffs life has been damaged completely and he
remains unemployed because of the cloud created by Defendants racial discriminatory treatments
and defamation of character. Plaintiff was forced to move from Brownsville without any

14

employment offer because of rumors in the community that he was fired from TSC due to sexual
harassment of a student without any proof.
IL
Summary of the Argument
The Southern District court in its opinion and order dated January 10,2020 based its decisions
solely on the information in the summary judgement provided by Defendants. Unfortunately, the
court failed to reconcile the inconsistencies and discrepancies of the supporting documents to the
summary judgement provided by Defendants. If this was done, the court’s opinion might have
been different. The Southern court cited nine complaints filed against Dr. Affiah in Defendants
summary judgement. This information is false. Defendants failed to indicate to the court that
they did have these complaints and supporting documents when requested by Dr. Affiah’s
attorney (on defamation case). Defendant failed to indicate to the court that they
did not have any document when the EEOC was very specific in requesting for the
details of these complaints. I can only refer the Southern court to Defendants response to the
EEOC on these questions (Exhibit E, page 2). Defendants did not have anything to show except
at this time, Defendants replaced their attorney for this new attorney. This new
attorney brought new documents on sexual harassment that he used in his client defamation case.
Defendants failed to inform the EEOC that these sexual harassment documents (fabricated)
provided by their new attorney were not verified or cross examined to be true and that they had
concluded this particular investigation. I refer the Southern court to thoroughly review exhibits
with notes (F, G, H, I, J, K, L, M, N, O, P, Q, R, S, T, U, V). The court should compare the
dates Defendants responded to the EEOC and the dates they claimed to have created these
documents. This information proves that Defendants lied under oath by producing false
document to deceive and cover up their racial discrimination act. At the same time, Dr. Affiah
character is defamed by Defendant actions. What actions did Defendants take to stop?
complaints? None, but fabricate a performance improvement form never seen by Plaintiff till the
summary judgement report by Defendants.
Southern court cited sexual harassment complaint provided by Defendants in its
opinion but the information provided in the exhibits above proves factual error in that opinion.

15

Southern court also cited comments made by a security officer in its opinion without knowing
that Defendants provided fabricated and false information. The security officer was brought into
the scene by Mr. Tony Cortez just before Dr. Affiah left the scene. The security officer did not
have any communication with Dr. Affiah. This is another example of fabrication by Lissa
Frausto. Mr. Cortez was the only one who had a direct knowledge of what happened besides Dr.
Affiah. In the documents Defendants provided on this issue, they ignored Mr. Cortez (Hispanic)
testimony. Southern court did not know that Dr. Affiah reported a student bad behavior to the
appropriate authority, the student services. Two days later, Lissa Frausto jumped out of her area
and fabricate a student’s harassment complaint against Dr. Affiah. The incident report was not
even filed yet at that time. Lissa Frausto started the so-called investigation and arrived at “No
merit” to the student complaint. What happened to the student complaint filed with the student?
services? Nothing. There are the facts that Southern court was unaware probably because of the
tons of conflicting and fabricated documents provided by Defendants.
The most important thing here is that Southern court, Brownsville did not have a good
knowledge of this case to ask the basic questions that the EEOC asked:
The Organization Chart (Exhibit E): To determine whether Lissa had the authority or
was TSC designated authority to prosecute, investigate and judge Dr. Affiah except
her racial discrimination motive? To determine whether Lissa Frausto was Dr.
Affiah’s supervisor? No information was provided to the EEOC.
Southern court admitted that its opinions footnote, that it denied Dr. Affiah opportunity to
respond to the summary judgement by Defendants but cited that Dr. Affiah did not refute the
summary judgment by Defendants. Plaintiff in this case without any legal background is
confused how an important decision like this can be made from a one-sided information.
Southern court dismissed any involvement by Lissa Frausto and Mike Shannon in this case in
late January 2020. The court provided its opinion on this issue as Plaintiff (pro se) not separately
serving Lissa Frausto and Mike Shannon. The court claimed as a foot note to its decision that
Plaintiff was notified on this issue in a letter received on January 17, 2020. The court failed to

16

provide any evidence of this notice whether it was sent or received by Plaintiff. The court and
Defendants received and accepted the amended complaints in January 2019. Records show that
Defendants responded to the complaints without raising any concern at that time. The court
never raised its concern on this issue not until a full year later and approximately four days
before rendering its decision. I will refer the Southern Court, to Exhibit E (response by
Defendants to the EEOC). In my opinion, this Exhibit E makes the decision by the Southern
court as a factual error. I also refer the Southern Court to Defendants headings of cover letters of
documents to Plaintiff and filed with the court on or around Septemberl4,2019 and
Wednesday, November 20,2019. These two documents speak louder than words in the Southern
court ruling of excluding Lissa Frausto and Mike Shannon as Defendants in this case.
In the first set documents filed on September 14, 2019 Defendant, Lissa Frausto did not have the
so-called interviews, investigations and letters to Mike Shannon. Lissa Frausto claimed that she
was the Custodian of employee’s personnel files? If these documents were present in Plaintiff
file
before he was fired, when did Lissa Frausto not provide these documents then? This is a clear
evidence that she did not complete her fabrications not until November 20, 2019
Moreover, Lissa Frausto, her attorney and the Southern District court should understand that it is
illegal to flood any employee’s personnel file with derogatory documents or any document at all
without the employee’s knowledge. Lissa Frausto has provided her attorney and Southern
District court with these documents (that she claimed were in Plaintiffs personnel file) without
Plaintiff prior knowledge.
Pertaining to the fabricated documents after the facts, I refer Southern court and
Appeals court, 5th Circuit to the documents provided by Defendants in their summary judgement.
Evidence shows that these documents were created by one person, Lissa Frausto and she was the
accuser, the investigator, the jury and the judge.
As outlined in this brief, there are no direct written statements from the complainants which is
the normal procedure. All the statements are accounts of Lissa Frausto from what she claimed
were from the complainants and hearsay. In some documents, she claimed that she got the
statements from individuals who got the information from complainants. In one or two
17

of the so-called complaints, Lissa Frausto claimed that she got from a phone conversation. Lissa
Frausto had an intention based on her racial bias against Plaintiff as indicated from the onset and
was determined to carry out by herself with no regards to her institution’s and Department of
Labor’s policies and guidelines. Records show that Lissa Frausto was promoted from the
Director of Human Resources to higher salaried position of the executive Director of Human
Resources along with the other deans by Mike Shannon after Plaintiff was fired
(Discrimination). Her new title is clearly seen in these documents. A clear evidence that these
documents did not exist not until 2019 and were not a part of Plaintiff s personnel file.
The time lines are false and fabricated. In Lissa Frausto’s so-called interviews and
investigations (if at all they took place) especially in her handwritten documents, it can be clearly
seen that she was leading the selected people on what she wanted use in implicating Plaintiff.
Plaintiff saw these fabricated documents for the first time in 2019 in the summary judgement.
These facts confirm that these documents were fabricated by Lissa Frausto justify her scheme
and as indicated previously, the documents were not there in 2016, 2017, 2018 but just suddenly
appear in 2019.1 strongly hope the Southern court takes the time to review these documents and
verify these facts to realize it made factual errors in reaching its rulings. Plaintiff with no legal
representative, had no opportunity to depose or crossed examined Defendants but careful review
of the documents filed by them provide valuable information. If the Southern District court had
reviewed or did not ignore these documents, it might have arrived at a different opinion.
Discussion: This is a case where Defendant Lissa Frausto (then HR director) from the onset
established her racial bias towards Plaintiff. Defendant Lissa Frausto’s racial bias
progressed to racial hate when she went outside her scope of responsibility to consistently
discriminate and harassed Plaintiff. Defendant Lissa Frausto then initiated two to three fabricated
complaints against Plaintiff. These complaints did not have direct or written statements by the so
called complainants. Defendant Frausto claimed that complainants gave her the information and
one was telephone conversation with complainant. Plaintiff was never given any opportunity to
face his accusers. Plaintiff was never interviewed contrary to fabricated documents provided by
Lissa Frausto that she interviewed Plaintiff In two of the complaints, Defendants claimed the

18

•r'A

complainants were simply afraid of Plaintiff because he refused to approve requests. There was
no TSC policy to support any of these as wrong doing by Plaintiff and Lissa Frausto unilaterally
determined that there was “no merit” in either complaint. But these are part of Defendants nine
complaints. Lissa Frausto recommended Plaintiffs termination, which Plaintiffjust realized in
the summary judgement filed in 2019. Lissa Frausto used ‘series of complaints’ as a cover up
for her racial bias, hate and discrimination. Lissa Frausto was never Plaintiff supervisor to make
any recommendation. The Southern court failed to recognize that there is a chain of command in
any academic institution.
When the details of series of complaints were requested even by the EEOC, Lissa Frausto did
have any documentation. Defendants got rid of their legal representative because he refused to
support her dirty scheme and hired Mr. Garza who immediately advised Defendant Lissa
Frausto to create complaint documents that never existed. In the process, Defendants
fabricated documents and defamed Plaintiff. Lissa Frausto came up with nine complaints as
the records show. Defendants attorney argued in the summary judgement that Plaintiff did not
seek remedy when these complaints were brought against him. This is false. There is no single
evidence that Plaintiff did not make series of attempts to have a meeting with Mike Shannon.
There is no evidence that Mike Shannon heard Plaintiff version before terminating his
appointment. Moreover, Plaintiff made attempts to resolve this case through mediation first
suggested by the EEOC, Lissa Frausto refused to settle against her attorney advice. This led to
that attorney being replaced. A thorough review of the documents of each complaint provided
by Defendant, Lissa Frausto depict that she used each of them as a cover up for her racial bias,
racial hate and racial discrimination.
These are the facts that the Southern District court failed to investigate or ignored before rushing
to factual error in judgement. The sequence of Defendant, Lissa Frausto motive, actions and
results are clearly shown in this brief and the documents provided by Defendants support these
claims and it is up to the Appeals Court of the 5th circuit, an independent body to reverse wrong
ruling by the Southern District court, Brownsville, Texas.

19

CONCLUSION
Appellant (with Pro se filing status) hopes and prays that this Appeals Court will accept this
brief, review it for the facts in this case. Appellant also hopes and prays that this Appeals
Court will review the fabricated (both written and typed) documents provided by Defendants in
their summary judgement. These documents which speak louder than words will enable the
Appeals Court, 5th circuit to arrive at the appropriate decision and relief justly entitled to
Plaintiff.

Respectfully submitted,
Imeh U. Affiah (Appellant)
(Pro Se status)
10001 Club Creek Drive, # 207
Houston, Texas 77036
37-962-8224 (Tel)
PatiencelO@Juno.com (e-mail)

20

CERTIFICATE OF SERVICE
Imeh U. Affiah, the undersigned hereby certifies that I will notify and serve Defendants’
attorney and the Southern District court, Brownsville, Texas as soon as the Courts of Appeals
approves and accepts this Brief.

Imeh U. Affiah

21

a

CERTIFICATE OF COMPLIANCE
To the best of my knowledge, I, Imeh U. Affiah believes to be in compliance with the guidelines
set forth by The United States Court of Appeals for the fifth circuit in terms of:

;i

1. The number of words allowed
2. Typing
i!

i

!

ii

Imeh U. Affiah

22

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

NO. 20-40045

Imeh U. Affiah,
Plaintiff-Appellant
v.
Texas Southmost College; Lissa Frausto; Mike Shannon,
Defendants-Appellees

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
BROWNSVILLE DIVISION

REPLY BRIEF FOR APPELLANT

Imeh U. Affiah, Appellant
'urrently o

101

i-Se- Filing Status)

lub Creek Drive, # 207

Houston, Texas 77036
337-962-8224 (Tel)
PatiencelO@Juno.com (e-mail)

TABLE OF CONTENTS

Page

TABLE OF CONTENTS

1

TABLE OF AUTHORITIES

.11

STATEMENT OF ISSUES PRESENTED FOR REVIEW.

1

SUMMARY OF THE ARGUMENT

2

ARGUMENT

.5

Issue 1: Defendants and the Southern District Court. Brownsville division miss the point:
As clearly outlines in the Initial brief, Amended Complaints by Plaintiff, this case is
an established racial bias and hate of Plaintiff by Defendant, Lissa Frausto resulting in
Discrimination, Job harassment and Hostile work environment and Retaliation.
Defendant, Lissa Frausto in her attempts to justify her actions and cover up her racial
bias defamed Plaintiffs character and threw Plaintiff into abject poverty................. .5
Issue 2: Defendants and the Southern District Court. Brownsville division miss the point.
This case is not about incompetence and or lack of knowledge and skills to resolve
complaints in the workplace by Defendants. Instead, this case is about a racial bias
and hate exhibited by one individual, Lissa Frausto who went outside her job
responsibility in terrorizing Plaintiff as outlined in the Initial brief, Amended
Complaints by Plaintiff. Defendants have consistently failed to explain in detail how
they resolved the so called and fabricated complaints they claimed were the main
reasons that led to unlawful termination of Plaintiff s employment

5

CONCLUSION

6

CERTIFICATE OF SERVICE.

7

CERTIFICATE OF COMPLIANCE WITH RULE 32(A)

8

l

TABLE OF AUTHORITIES

Appellant filing status is Pro Se with no legal background and is unable to provide
legal citations and authorities.

11

.. '■"'5-

STATEMENT OF ISSUES PRESENTED FOR REVIEW
Issue 1: Whether there are fact issues in Defendant, Lissa Frausto as the Director Human
Resources treatments and actions against Plaintiff who was not under her
supervision.
Issue 2: Whether there are fact issues in the nature of complaints and how these
complaints (most of them fabricated and seen by Plaintiff for the fust time in
Defendants summary reports) were handled by Defendants.

1

SUMMARY OF THE ARGUMENT
This case is about racial bias and hate of Plaintiff by Defendant, Lissa Frausto resulting in
Discrimination. Job harassment and Hostile work environment and Retaliation
Defendants contend that Plaintiff‘s Initial Brief was exactly as the Amended Complaints.
Plaintiff strongly disagrees. Defendants in their response to the Plaintiffs Initial Brief, once
again, failed to address how and why Defendant, Lissa Frausto (Hispanic) in her capacity as the
Director of Human Resources singled out Plaintiff (black) as the Dean of Health Care, Career&
Technical Education. The EEOC requested the TSC Organizational chart to determine whether
Lissa Frausto had the authority or was the designated authority to prosecute, investigate and
judge Plaintiff except her racial discrimination motive but Defendants failed to provide one.
Defendants in their response brief decided to outline more fabricated complaints.
Defendants have consistently failed to address the normal procedure for handling
a complaint in any workplace which was utilized by the EEOC as the records show.
Specifically: a. Written and direct statement(s) by complainant with details of his/her complaint
(NOT HEARSAY OR THIRD-PARTY ACCOUNT)
b. Determination by Grievance Committee whether the complaint meets specific
guidelines for the particular complaint to warrant investigation
c. If ‘b’ is /are met, the accused or respondent is notified for a written response
d. Depending on the discrepancies of the case’s accounts of the both the
complainant and the respondent, both parties face questioning by the
committee. If there are witnesses to the incident, they will be questioned
e. Based on the information the committee have at this step, the committee
will make a decision and file a report signed by every member.
Plaintiff has worked in a post- secondary education setting for over 25 years and has been
an active member of Grievance and other committees as required by the Accrediting
Agencies such Southern Association of Colleges and Schools Commission on Colleges
2

(SACSOC). The steps outlined are basically the same in any institution. None of these steps was
followed by Defendants but rushed to judgement in employment termination of Plaintiff.
Rather and evidence shows that these documents were created by one person,
Lissa Frausto and she was the accuser, the investigator, the jury and the judge.
In all the so called and fabricated complaints, evidence show Plaintiff was never
notified of any complaint filed except one. In that particular complaint, Defendant, Lissa
Frausto once again injected herself and insisted on being the investigator despite the fact the
TSC guidelines explicitly indicated Kim Sanchez. Most importantly, this complaint reported by
Lissa Frausto never met the TSC AND their DOA LOCAL standard and guidelines. Records
show in all the unilateral investigations by Defendant, Lissa Frausto, there is no account of
Plaintiff of any complaint. Defendants initially outlined five of the so-called complaints to the
Southern District Court, Brownsville division. These initial complaints lacked details but with
“blanket” heading as “unprofessional behavior”. These documents lacked information
on what and how investigations to these complaints were conducted. The Southern District
Court, Brownsville failed to detect these inconsistencies. Plaintiff recognizing these
inconsistencies, immediately brought them to the attention of the Southern District Court,
Brownsville. Miraculously, after two months. Defendants submitted additional documents with
Four additional fabricated complaints and tons of documents supposed to be investigations. Most
of these documents Plaintiff as he has indicated several times already saw them for the first time.
Dates on these investigative documents are inconsistent with the dates on Defendants’
complaints. Defendants after convincing the Lower Court, Brownsville to believe their false
information wants the Higher Court to uphold the decision of the Lower Court despite the series
of factual errors clearly outlined in the Appellant Initial Brief. These facts strengthen the need for
Oral argument. Records show there is no evidence of Discovery demands and deposition of
Defendants by Plaintiff because of his lack of Legal representation to determine the validity of
the information Defendants provided and to address the discrepancies. This may involve answers
3

to simple questions and clarification of the discrepancies in the Defendants’ documents.
Oral argument will create a means to get these answers from Defendants in real time without
any time for fabrication. In all the documents provided by Defendants, these is not a single
response or comment by Defendant, Mike Shannon except a letter of termination of Plaintiff s
employment supposedly sent by him to Plaintiff through Defendant, Lissa Frausto flanked by
security guards. Contrary to what Defendants indicated in their documents, Mike Shannon never
had a meeting with Plaintiff prior to sending the letter of termination. Mike Shannon never
discussed any complaint with Plaintiff. Records show Mike Shannon was meeting with
other employees but refused any meeting with Plaintiff despite multiple attempts made by
Plaintiff for a meeting. Defendant, Mike Shannon will have opportunity respond to simple basic
question during Oral argument. Mike Shannon silence up till this stage is a clear evidence that
Plaintiff employment termination was planned and predetermined and Defendants who used
fabricated complaints and investigations as cover ups for the real reason, which is Racial
Discrimination from the onset. Plaintiff is prepared to prove without any doubts in a matter of
two to three minutes that these documents and complaints by Defendants are fabrications.
Plaintiff strongly supports Oral argument, which he feels will give Defendants opportunity to
defend the information and inconsistent documents they have provided so far. Defendants
oppose Oral Argument and afraid that the truth will come to light but they forget the main goal
of bringing this case to the Higher and neutral Court is for the determination of the TRUTH
AND JUSTICE. Plaintiff hopes and prays for the sake of truth and justice, the Higher Court will
approve a Hearing and Oral Argument in this case.

4

ARGUMENT
Issue 1: Defendants and the Southern District Court, Brownsville division miss the point:
As clearly outlines in the Initial brief, Amended Complaints by Plaintiff, this case
is an established racial bias and hate of Plaintiff by Defendant, Lissa Frausto
resulting in Discrimination, Job harassment and Hostile work environment and
Retaliation. Defendant, Lissa Frausto in attempts to justify her actions and cover
up her racial bias defamed Plaintiff’s character and threw Plaintiff into abject
poverty.
Issue 2: Defendants and the Southern District Court, Brownsville division miss the point.
This case is not about incompetence and or lack of knowledge and skills to resolve
complaints in the workplace by Defendants. Instead, this case is about a racial bias
and hate exhibited by one individual, Lissa Frausto who went outside her job
responsibility in terrorizing Plaintiff as outlined in the Initial brief, Amended
Complaints by Plaintiff. Defendants have consistently failed to explain in detail how
they resolved the so called and fabricated complaints they claimed were the main
reasons that led to unlawful termination of Plaintiff’s employment.

Appellant has previously provided the relevant facts in this case in the Amended Complaints,
Initial Brief and in the Summary above. Appellant has no additional argument at this time other
than hoping and praying that the United States Court of Appeals, 5th Circuit in its wisdom will
review the facts in this case for the sake of the truth and justice that a neutral court such as this is
known for.

5

CONCLUSION
For reasons presented above and for the reasons stated in Appellant’s amended
complaints and Initial brief, Appellant respectfully hopes and prays that this Court reverses the
judgement by the Southern District Court, Brownsville division and provide justifiable relief to
Appellant for the complete destruction of Appellant’s life by Defendants’ actions.

Respectfully submitted,
Imeh U. Affiah, Appellant
Currently on Pro-Se Filing Status)

10001 Cmb Creek Drive, # 207
Houstdn, Texas 77036
337-962-8224 (Tel)
PatiencelO@Juno.com (e-mail)

6

CERTIFICATE OF SERVICE
1. Appellant certifies that this reply brief for appellant is sent to the United States Court of
Appeals, 5th Circuit, New Orleans through Certified mail for filing. Appellees and interested
Parties will have access to this document as soon as it is filed.

7

CERTIFICATE OF COMPLIANCE
1. To the best of Appellant knowledge, he believes to be in compliance with the guidelines set
forth by the United States court of Appeals, 5th Circuit in this Reply brief in terms of type-volume
limitations.
2. This reply brief contains less than 6500 words allowable for a Reply brief. Specifically,
2099 words.
3. This reply brief is sent to the Clerk of Court, United States Court of Appeals, 5th Circuit, New
Orleans through Certified mail for filing.

8

Additional material
from this filing is
available in the
Clerk's Office.

